           Office of Inspector General




October 25, 2004

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

WILLIAM P. GALLIGAN
VICE PRESIDENT, DELIVERY AND RETAIL

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

DEWITT HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

ANTHONY J. VEGLIANTE
VICE PRESIDENT, LABOR RELATIONS

SUBJECT:         Audit Report – Reports Distribution
                 (Report Number IS-AR-05-001)

This report presents the results of our self-initiated audit of cost reduction opportunities
associated with reports distribution (Project Number 04BG005IS000). Specifically, our
objective was to determine if costs associated with generating and distributing
mainframe outputs printed by the Eagan Host Computer Services could be reduced.

The Postal Service has the ability to increase the efficiency of output distribution and
reduce cost within the spirit of the Postal Service paper reduction policy. This can occur
if the Postal Service implements an output distribution policy that conveys its preference
for using electronic media over printing and distributing hardcopy outputs. Our review
showed a potential financial impact of $3,220,411 annually for the specific outputs
reviewed. Based on input from Postal Service managers, we recommended a steering
committee be formed to establish and implement policies for reducing internal printed
outputs and expand the scope to a global effort to reduce printed outputs. These funds
represent funds put to better use and will be reported as such in our Semiannual Report
to Congress.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
In the draft version of this report, we directed recommendations to multiple Senior Vice
Presidents because the issues in this report were global throughout the Postal Service.
Likewise, the addressees on the draft version were those same individuals. However,
following additional discussions with Postal Service management we have directed this
final report to the appropriate functional Vice Presidents. Additionally, we have revised
the language in recommendation number 8 to provide more flexibility than originally
stated. We made nine recommendations to Postal Service management addressing
these issues.

Management generally agreed with recommendations 1-8 and has initiatives in
progress or planned that should correct the issues in this report. Management
disagreed with recommendation 9, however, action is planned which meets the intent of
the recommendation. Management’s comments and actions taken or planned are
responsive to our recommendations. Management’s comments and our evaluation of
these comments are included in this report.

The Office of Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed. This recommendation should
not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact Gary Rippie,
Director, Information Systems, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment
cc: Richard J. Strasser, Jr.
    Suzanne F. Medvidovich
    Patrick R. Donahoe
    John A. Rapp
    Robert L. Otto
    Thomas G. Day
    Margaret A. Weir
    Peter Myo Khin
    Dennis M. Baca
    Marie K. Martinez
    Jo Ann E. Mitchell
    Kevin T. McNamara
    Richard A. Lena
    Deborah J. Judy
    Van E. Rouse
    Camille B. Wider
    John R. Mularski
    Steven R. Phelps
Reports Distribution                                                     IS-AR-05-001



                                TABLE OF CONTENTS
Executive Summary                                                             i

Part I

Introduction                                                                 1
    Background                                                               1
    Objective, Scope, and Methodology                                        3
    Prior Audit Coverage                                                     4

Part II

Audit Results                                                                5
  Controlling Printed Outputs                                                5
      Output Distribution Policy                                             5
      Environmental Considerations                                           6
      Recommendation                                                         6
      Management’s Comments                                                  7
      Evaluation of Management’s Comments                                    7

    Opportunities for Cost Reduction                                         8
       Outputs With an Electronic Distribution Method Already in Place       8
             Payroll Checks                                                  8
             Recommendations                                                 9
             Management’s Comments                                          10
             Evaluation of Management’s Comments                            10

                Vendor Checks                                               10
                Recommendation                                              11
                Management’s Comments                                       11
                Evaluation of Management’s Comments                         12

                Management Reports                                          12
                Recommendations                                             13
                Management’s Comments                                       13
                Evaluation of Management’s Comments                         13

          Outputs Capable of Being Distributed Electronically               14
               Earning Statements/W-2s                                      14
               Recommendation                                               15
               Management’s Comments                                        15
               Evaluation of Management’s Comments                          15
Reports Distribution                                        IS-AR-05-001




         Outputs Where Mailing Frequencies May Be Reduced      15
              Employee Receivable Statements                   15
              Timecards                                        16
              Recommendation                                   17
              Management’s Comments                            17
              Evaluation of Management’s Comments              17

Appendix. Management’s Comments                                18
Reports Distribution                                                        IS-AR-05-001



                          EXECUTIVE SUMMARY
Introduction           This report presents the results of our self-initiated audit of
                       cost reduction opportunities associated with report
                       distribution (Project Number 04BG005IS000). The objective
                       of our audit was to determine if costs associated with
                       generating and distributing mainframe outputs printed by
                       the Eagan Host Computing Services can be reduced.

                       Nearing the conclusion of our audit, we held preliminary
                       discussions with Postal Service management who
                       suggested the establishment of a steering committee to
                       address specific opportunities. The proposal also
                       suggested expanding the scope to encompass output
                       reduction opportunities on a postal-wide basis. We believe
                       moving in this direction will place the Postal Service in a
                       position to fully address cross-organizational issues raised
                       in this report.

Results in Brief       Controlling the distribution of printed outputs by the Eagan
                       Host Computing Services is essential to increasing
                       efficiency and minimizing associated costs. The Postal
                       Service has the potential to increase the efficiency of output
                       distribution and reduce cost within the spirit of their paper
                       reduction policy. This can occur if the Postal Service
                       establishes a steering committee to promote its existing
                       electronic infrastructure and implement an output
                       distribution policy that conveys its preference for using
                       electronic media over printing and distributing hardcopy
                       outputs.

                       Specific areas of opportunity for increasing the use of
                       electronic media relate to printed outputs that:

                          •   Have an electronic distribution method already in
                              place.
                          •   Are capable of being distributed electronically as part
                              of ongoing initiatives.

                       In addition, frequencies for mailing some printed outputs
                       may be reduced. We refer these outputs for further review.

                       The financial impact of the specific opportunities results in
                       $3,220,411 annually. We agree with Postal Service
                       managers that a one-time offsetting investment cost may be
                       required. However, additional benefits may also be

                                         i
Reports Distribution                                                       IS-AR-05-001



                        achieved by evaluating outputs and cost factors we did not
                        consider in our review. These monetary benefits represent
                        funds put to better use for the Postal Service and will be
                        reported as such in our Semiannual Report to Congress.

Summary of              To minimize cost and maximize use of the existing
Recommendations         electronic infrastructure, we recommended the Postal
                        Service form an organizational steering committee
                        comprised of key stakeholders to establish an electronic
                        distribution policy. In addition, we recommended the
                        steering committee implement this policy and review
                        additional opportunities throughout the organization.

                        As detailed in the body of the report, we further
                        recommended the appropriate Vice Presidents, where
                        feasible:

                        • Increase use of electronic payments for payroll checks
                          and vendor checks to the extent possible, including a
                          revision of the vendor payment policy.

                        • Reduce or discontinue printing and/or mailing
                          management reports that are available electronically,
                          where possible.

                        • Incorporate electronic earnings statements and W-2s into
                          planned initiatives.

Summary of              Management generally agreed with our findings and
Management’s            recommendations to establish a steering committee and
Comments                capture the $3.2 million saving opportunity identified. While
                        management agreed with 7 recommendations in their
                        entirety, it partially agreed to one recommendation and
                        disagreed but took the desired action for the other
                        recommendation. Management’s comments, in their
                        entirety, are included in the appendix of this report.

Overall Evaluation of   Management’s comments and actions taken or planned are
Management’s            responsive to our findings and recommendations and
Comments                should correct the issues identified in the report.




                                         ii
Reports Distribution                                                                                       IS-AR-05-001



                                          INTRODUCTION
Background                          The Postal Service has two Host Computing Service
                                    Centers in Eagan, Minnesota, and San Mateo, California.
                                    Annually, millions of pages of outputs are printed and
                                    mailed from these centers using state of the art resources
                                    as depicted below.




                                    This picture illustrates the magnitude of printing and supplies used to
                                    produce various forms of output.

                                    While electronic reporting tools are used for distributing
                                    many outputs, the Eagan Host Computing Services prints
                                    over 1,750 types1 of outputs based on customer
                                    requirements. For a three-month period, 77 percent of
                                    printed outputs we reviewed were associated with only a
                                    few business areas. Payroll-related outputs account for
                                    about a third of printed volume. Approximately 15 percent
                                    of the printed volume is prepared for distribution manually.

                                    Many of these outputs are mailed, which result in added
                                    costs to process, transport, and deliver. The fiscal year
                                    (FY) 2003 costs for supplies, labor, disposal, and mailing
                                    related costs are at least $5.7 million.2




1
  Mainframe job names are assigned to printed outputs. We summarized on the first six characters to
distinguish type.
2
  Total related costs of $5.7 million consist of $2.2 million relating to labor, supplies, and disposal and at
least $3.5 million in costs associated with postage for the 47 outputs selected for review and discussed in
this report.

                                                        1
Reports Distribution                                                       IS-AR-05-001



                       The Postal Service has conducted several prior efforts to
                       reduce printed outputs. These efforts resulted in reduction
                       and elimination of some outputs. We commend these past
                       initiatives; however, initiatives were not done on a
                       consistent or continuous basis.

                       An electronic infrastructure is essential to support the
                       distribution of outputs. The Postal Service has made recent
                       gains in this area, providing additional opportunities to
                       increase efficiency. Currently, the Postal Services computer
                       infrastructure reaches at least 81 percent of facilities and
                       55 percent of employees. For example, Personal Central
                       Kiosks provide Web access for employees, including craft,
                       to their confidential personnel information in the workplace.
                       Within the last two years, the Postal Service has provided
                       secure Web-based access to over 300,000 employees who
                       would not otherwise have access to a Postal Service
                       computer in the workplace.

                       To further enhance its reach to employees and facilities, the
                       Postal Service is currently working on self-service solutions
                       such as:

                          •   Human Capital Enterprise (HCE) - This is a major
                              effort between Human Resources, Information
                              Technology, and Finance/Controller to incorporate
                              human resource functionalities for all Postal Service
                              employees into a single integrated shared services
                              environment.

                          •   Advanced Computing Environment (ACE) - This
                              effort is multi-year technology infrastructure
                              refreshment that involves standardizing and
                              upgrading workstations, messaging systems, and
                              servers as well as reducing the number of server
                              locations, help desks, and contract field support
                              personnel.

                          •   Portal Solutions - This effort provides employee
                              access to personnel information from the Internet.
                              Employees will be able to obtain access to this
                              information through personal computers outside the
                              Postal Service network.




                                     2
Reports Distribution                                                          IS-AR-05-001




                           •   Enterprise Data Warehouse - Authorized users can
                               query and analyze data from key business areas
                               including; Retail, Supply Management, Finance,
                               Network Operations, Facilities, Marketing, and
                               Human Resources.

                           •   Shared Service Accounting - This effort consolidates
                               resources and financial/accounting like activities
                               typically spread across 80 districts into
                               three accounting service centers in Eagan, St. Louis,
                               and San Mateo. Its purpose is to service multiple
                               internal partners at lower costs and with higher
                               service levels with the common goal of enhancing the
                               Postal Service’s value.

Objective, Scope, and   The objective of our audit was to determine if costs
Methodology             associated with generating and distributing mainframe
                        outputs printed by the Eagan Host Computing Services
                        could be reduced.

                        We interviewed personnel, conducted tests where
                        necessary and assessed policy issues related to printed
                        data. To assess related internal controls, we reviewed
                        applicable policies, procedures, and other relevant
                        materials.

                        To identify cost reduction opportunities, we reviewed
                        mainframe print logs covering a three-month period ending
                        January 2004. We selected and analyzed 47 outputs
                        representing 77 percent of the printed volume, based on
                        total lines printed. In addition, we interviewed Eagan and
                        headquarters officials and business area personnel to
                        determine if existing printed outputs were:

                           •   Available on-line or distributed electronically.
                           •   Could be reduced or eliminated.
                           •   Capable of being on-line.

                        We also assessed costs associated with outputs selected
                        for review. Financial opportunities identified in this report
                        are limited to supplies, costs of processing, delivering,
                        transporting, and other transactional costs. We used




                                       3
Reports Distribution                                                         IS-AR-05-001




                       conservative estimates that did not include direct variable
                       costs such as labor, equipment, and overhead to avoid
                       duplicating cost savings with other Postal Service initiatives.

                       This audit was conducted from November 2003 through
                       October 2004, in accordance with generally accepted
                       government auditing standards and included such tests of
                       internal controls as were considered necessary under the
                       circumstances. We relied on the results of previous general
                       control audits to ascertain the reliability of information used.
                       Based on the results of these audits and in conjunction with
                       interviews, we determined the information is sufficiently
                       reliable to meet the audit objectives. We discussed our
                       observations and conclusions with appropriate management
                       officials and included their comments, where appropriate.

                       As we neared completion of our audit, Postal Service
                       management suggested reviewing an expanded scope of
                       outputs generated nation-wide through the establishment of
                       a steering committee. Based on these actions, we
                       customized our recommendations to encompass the
                       broader objective.

Prior Audit Coverage   There were no previous reports issued to the Postal Service
                       by the Office of Inspector General, the Government
                       Accountability Office, or the Postal Inspection Service that
                       specifically addressed internal report distribution at the
                       Postal Service.




                                      4
Reports Distribution                                                          IS-AR-05-001



                            AUDIT RESULTS
                       The Postal Service has the ability to increase the efficiency
                       of output distribution and reduce cost within the spirit of the
                       Postal Service paper reduction policy. This can occur if the
                       Postal Service implements an output distribution policy that
                       conveys its preference for using electronic media over
                       printing and distributing hardcopy outputs. Our review
                       showed a potential financial impact of $3,220,411 annually
                       for the specific outputs reviewed.

Controlling Printed    Controlling the distribution of printed outputs produced at the
Outputs                Eagan Host Computing Services is essential to increasing
                       efficiency and minimizing associated costs. The Postal
                       Service has the potential to increase the efficiency of output
                       distribution and reduce cost within the spirit of its paper
                       reduction policy. This can occur if the Postal Service takes
                       full advantage of the existing electronic infrastructure, and
                       implements an output distribution policy that requires the use
                       of electronic media over printing and distributing hardcopy
                       outputs.

Output Distribution    Our assessment of controls noted the Postal Service is
Policy                 without a documented policy for requesting, approving, and
                       reducing printed outputs. This occurred because there have
                       not been corporate policies and procedures to provide
                       guidance on electronic distribution and monitoring of printed
                       outputs. While we recognize the business areas determine
                       the need, some outputs printed and distributed from Eagan
                       Host Computer Services were available in electronic form.

                       Industry best practices state that output distribution lists be
                       initially approved and subsequently reviewed at least once a
                       year. The number of printed copies should also be evaluated
                       and outputs not used be eliminated. This process would
                       allow outputs to be received only by necessary users.
                       Establishing such a policy will increase efficiency by reducing
                       production costs as discussed in subsequent sections of this
                       report. A policy would provide business users with guidance
                       towards electronic reporting and consideration of cost
                       reductions.




                                       5
Reports Distribution                                                                        IS-AR-05-001




                                 Postal Service management suggested a steering committee
                                 could be formed to establish and implement a policy for
                                 promoting the use of the current electronic infrastructure.
                                 Establishing a steering committee made up of all key
                                 stakeholders such as Engineering, Information Technology,
                                 Operations, Finance, and Supply Management will be
                                 essential in accomplishing an agency-wide electronic
                                 distribution effort and directing future reviews to reduce
                                 printed outputs.

Environmental                    As an additional benefit, actively promoting the electronic
Considerations                   distribution of data will further contribute to achieving waste
                                 reduction goals set by environmental management.
                                 According to Handbook AS-552, Pollution Prevention Guide
                                 (D-19):

                                      •   The Postal Service is committed to the reduction of
                                          waste at the source of generation.

                                      •   In office settings, the Postal Service is encouraged to
                                          use electronic mail rather than paper memos and
                                          distribution copies.

                                      •   Distribution lists should be limited.

                                      •   If paper copies are necessary, the Postal Service
                                          should circulate one memo or report with a cover
                                          sheet indicating distribution.3

                                 Incorporating electronic reports distribution policy in the
                                 pollution guide would help the Postal Service meet its
                                 environmental goals in addition to efficiency and cost
                                 reduction goals.

Recommendation                   We recommend the Vice President, Delivery and Retail; Vice
                                 President Labor Relations; Vice President, Employee
                                 Resource Management; Vice President, Supply
                                 Management; and Acting Vice President, Finance, Controller:

                                  1. Form an organizational steering committee comprised of
                                     key stakeholders to:

                                             a) Establish an electronic distribution policy.

3
    Handbook AS-552, Pollution Prevention Guide, August 1996, D-19, Paper, Items 3 and 4.

                                                     6
Reports Distribution                                                     IS-AR-05-001




                               b) Implement this policy Postal Service-wide.

                               c) Review additional opportunities for reducing
                                  paper outputs.

Management’s           Management agreed with our recommendation to establish a
Comments               cross-functional team comprised of key stakeholders. The
                       team will be formed in FY 2005.

Evaluation of          Management’s comments are responsive to our
Management’s           recommendation and actions planned should correct the
Comments               issues identified in the finding.




                                     7
Reports Distribution                                                                               IS-AR-05-001




Opportunities for                 The Eagan Host Computing Services has the capability to
Cost Reduction                    increase the efficiency of output distribution and reduce cost.
                                  Out of the 47 outputs reviewed, cost reduction opportunities
                                  exist for 57 percent of the outputs. Specific areas of
                                  opportunity for increasing the use of electronic media relate
                                  to outputs that:

                                       •   Have an electronic distribution method already in
                                           place.
                                       •   Are capable of being distributed electronically as part
                                           of ongoing initiatives.

                                  In addition, the frequencies for mailing some printed outputs
                                  may be reduced, specifically, time cards and employee
                                  receivable statements.

                                  The financial impact of the 47 outputs reviewed is
                                  $3,220,411 annually. Reviewing printed outputs generated
                                  Postal Service-wide could provide additional monetary
                                  savings.

Outputs With an                   An electronic distribution method is already in place for
Electronic Distribution           49 percent of printed outputs reviewed. These outputs
Method Already in                 consist of printed checks and management reports that are
Place                             available electronically.

Payroll Checks                    While the Postal Service has made significant progress in
                                  paying employees electronically, it printed 6.4 million payroll
                                  checks during FY 2003. Our analysis of payroll activity
                                  during March 2004 showed 28 percent of employees4
                                  continue to receive paper checks.

                                  Historically, the payroll direct deposit program has been
                                  implemented on a voluntary basis. In addition, existing
                                  Postal Service labor agreements do not specifically address
                                  electronic payments, which may be a negotiable item.
                                  Increasing participation to a comparable level with federal
                                  agencies could provide $648,392 annually in cost savings to
                                  the Postal Service.




4
    Twenty-eight percent (228,466 of 809,380) of all employees continue to receive paper checks.

                                                       8
Reports Distribution                                                                    IS-AR-05-001




                                  Benchmarking the use of direct deposit for payroll to federal
                                  agencies showed:

                                      •   Electronic funds transfer provisions within the Debt
                                          Collection Act5 require federal agencies to utilize
                                          electronic funds transfer payment with limited
                                          exceptions.

                                      •   Department of Defense pays all of its 5.9 million
                                          employees electronically as a condition of
                                          employment.

                                      •   Other federal agencies for which the United States
                                          Treasury disburses payroll achieved 98 percent
                                          electronic funds transfer participation. To achieve
                                          this percentage, agencies with unionized employees
                                          used companion mailers to describe the benefits of
                                          electronic funds transfer and strongly encouraged
                                          participation. Ultimately, employees had to certify
                                          they did not have bank accounts if they insisted on
                                          receiving a paper check.

                                  Given these facts, we believe the Postal Service has an
                                  opportunity to increase payroll electronic funds transfer
                                  participation and recommend pursuit of this opportunity in
                                  future negotiations.

Recommendations                   We recommend the Vice President, Labor Relations and
                                  Vice President, Employee Resource Management:

                                  2. Incorporate a direct deposit campaign for craft and
                                     non-craft employees similar to the successful efforts
                                     used by federal agencies with employee unions.

                                  We recommend the Vice President, Labor Relations; Vice
                                  President, Employee Resource Management; and Acting
                                  Vice President, Finance, Controller:

                                  3. Negotiate the use of direct deposit as a condition of
                                     employment for existing and/or new employees in future
                                     labor and nonlabor agreements.



5
    Public Law 104-134, Debt Collection Improvement Act of 1996, Section 31001 (X).

                                                      9
Reports Distribution                                                                                IS-AR-05-001




Management’s                    Management agreed with recommendation 2 and is
Comments                        currently encouraging employees to utilize direct deposit
                                through various internal media. Management partially
                                agreed to recommendation 3 citing it could not unilaterally
                                mandate the use of direct deposit but will attempt to do so
                                consistent with overall bargaining priorities and strategies.

Evaluation of                   Management’s comments are responsive to
Management’s                    recommendations 2 and 3 and actions taken or planned
Comments                        should correct the issues identified in the findings.

Vendor Checks                   The Postal Service has significant opportunities to pay its
                                vendors electronically. Specifically, over 2 million
                                (78 percent) vendor check payments were printed and
                                distributed during FY 2003.6 As a matter of policy, the
                                Postal Service has the option of making vendor payments by
                                check, by electronic funds transfer, or by government credit
                                card.7 Increasing vendor participation in the electronic funds
                                transfer program could provide $787,674 annually in cost
                                savings to the Postal Service.

                                Benchmarking the use of electronic funds transfer for vendor
                                payments to federal agencies showed:

                                     •   Federal agencies for which the United States
                                         Treasury disburses vendor payments utilize
                                         electronic funds transfer 65 percent of the time, on
                                         average.

                                     •   According to federal purchasing regulations,
                                         contractor registration is required, including
                                         electronic funds transfer information, in order to
                                         conduct business before awarding any contract,
                                         basic agreement, basic ordering agreement, or
                                         blanket purchase agreement, on or after October 1,
                                         2003.8




6
  Eagan Host Computer Services prints and distributes vendor checks for the Minneapolis, St. Louis, and
San Mateo Centers.
7
  Purchasing Manual Issue 3, Appendix B, Section B.3, Contract Clause 4-1.
8
  Best Practice: Federal Acquisition Circular 2001-16 Amendment, Item I-Central Contract Registration (FAR
Case 2002-018).

                                                   10
Reports Distribution                                                         IS-AR-05-001




                           •   The Department of Defense supports the registration
                               process through its Central Contract Registration
                               website. Contractors are required to register
                               company information annually.

                       We reviewed data for 80,022 vendors who received checks
                       (237,885) printed during the 2nd quarter of FY 2004. Results
                       showed:

                           •   Forty-six percent (36,950) of the vendors received an
                               average of three checks. One vendor received as
                               many as 878 checks during the quarter.

                       Electronic funds transfer requires a set-up and completion
                       process by the accounting service center, which typically is
                       not used for one-time vendor payments. We agree that
                       set-up cost for a one-time payment may not be cost
                       effective. However our analysis of a single quarter showed:

                           •   Fifty-four percent (43,072) represented one-time
                               payments to vendors including corporations and
                               small businesses.

                           •   The average amount of single payments during the
                               quarter was $1,435. The government credit card
                               allows for payments up to $10,000.

                       Given these facts, we believe the Postal Service has
                       significant opportunities to increase vendor electronic funds
                       transfer participation.

Recommendation         We recommend the Vice President, Supply Management;
                       and Acting Vice President, Finance, Controller:
                       4. Revise the Postal Service vendor payment policy to
                          require vendors, to the extent possible, to accept
                          electronic funds transfer or government card with limited
                          exceptions.

Management’s           Management agreed with the intent our recommendation
Comments               and stated the current contractual policy is sufficient. They
                       also stated they would work to enhance internal process
                       improvements to increase the use of electronic funds
                       transfer (EFT) payments in FY 2005.



                                      11
Reports Distribution                                                                           IS-AR-05-001




Evaluation of          Management’s comments are responsive to the
Management’s           recommendation and actions planned should correct the
Comments               issues identified in the finding.

Management Reports     We noted that 8 of 11 management reports reviewed were
                       mailed to thousands of sites, even though many users could
                       view them electronically. Management reports with an
                       existing electronic medium are used by the following
                       business areas:


                           Delivery & Retail                    Savings Opportunities ($)
                           Outputs
                           Rural Route Evaluations                                       $139,577
                           Rural Carrier Hours                                           $136,700
                           Rural Route Master Listing                                     $76,939
                           Total                                                         $353,216


                           Finance Outputs                      Savings Opportunities ($)
                           Payroll Adjustments                                             $72,447
                           Employee On-Rolls                                               $26,958
                           Statistics
                           Total                                                           $99,405


                           Human Resource                       Savings Opportunities ($)
                           Outputs
                           Retirement Related                                                  $0*
                           Employee Master Listing                                             $0*
                           Employee Reference Listing                                      $60,983
                           Total                                                           $60,983
                                  *Financial impact not captured because outputs not mailed.

                       This occurred because there has not been a consistent and
                       continuous policy for encouraging electronic distribution and
                       monitoring of printed outputs. We estimate the Postal
                       Service can avoid at least $513,604 annually by maximizing
                       its use of electronic means for viewing management reports.

                       To demonstrate the need for improvement, we highlight the
                       following examples:

                       • Rural route evaluation reports were produced 29 times
                         during FY 2003 and distributed in separate mailings
                         totaling about 108,000. Mailings during the year ranged
                         from 2,000 to 13,000 locations. Four copies are
                         generated for each mailing; three are mailed to respective
                         post offices and one mailed to the corresponding district

                                        12
Reports Distribution                                                          IS-AR-05-001



                           office. Only one copy is required for the post office route
                           book and that report can be viewed electronically. If
                           additional copies were needed, a user would still be able
                           to print locally.

                       •   Employee on-roll statistics were being printed and
                           distributed to field offices by the Eagan Host Computing
                           Services. This report is currently available and in use
                           within the Enterprise Data Warehouse. As the Postal
                           Service continues to populate and increase its use of the
                           enterprise data warehouse with self-service payroll,
                           human resource, and other employee information, we
                           believe there will be less of a need for the Eagan Host
                           Computing Services to support management reports in
                           printed form.

Recommendations        We recommend the Vice President, Delivery and Retail:

                       5. Reduce or discontinue, to the extent possible,
                          management reports for Delivery and Retail that are
                          available electronically.

                       We recommend the Acting Vice President, Finance,
                       Controller:

                       6. Reduce or discontinue, to the extent possible,
                          management reports for Finance that are available
                          electronically.

                       We recommend the Vice President, Employee Resource
                       Management:

                       7. Reduce or discontinue, to the extent possible,
                          management reports for Human Resources that are
                          available electronically.

Management’s           Management agreed with recommendations 5 through 7 to
Comments               reduce management reports in paper form, where feasible.
                       They also stated that additional costs associated with
                       printing reports locally would be considered as a part of the
                       decision to move to electronic reports distribution.

Evaluation of          Management’s comments for recommendation 5 through 7
Management’s           are responsive to the recommendations and actions taken or
Comments               planned should correct the issues identified in the finding.


                                       13
Reports Distribution                                                         IS-AR-05-001




Outputs Capable of     The audit also showed employee earning statements and
Being Distributed      W-2 forms are capable of being distributed electronically as
Electronically         part of ongoing initiatives that enhances infrastructure.
                       These outputs currently do not have an electronic
                       distribution method in place. This occurred because the
                       Postal Service has not given priority to reengineering payroll
                       processes in current human resources technology initiatives.
                       The Postal Service can avoid costs of $1,270,741 annually
                       by incorporating these outputs into on-going initiatives such
                       as the Human Capital Enterprise.

Earning                Though the Postal Service does not currently have an
Statements/W-2s        infrastructure in place to provide electronic earnings
                       information to its employees, federal departments have
                       embraced the benefits of distributing electronic earnings
                       information on a voluntary basis. For example, the
                       Department of Defense publicizes a 44 percent sign-up rate
                       for 5.9 million employees to its electronic earnings website.
                       Likewise, the National Finance Center, which provides
                       secure services to more than 100 federal agencies,
                       publicizes a 57 percent enrollment rate to its employee
                       personal page website that provides earnings and benefits
                       information.

                       According to the National Finance Center:

                          •   All client agencies offer their employees the
                              opportunity to enroll in the employee personal page.

                          •   Enrollment at most agencies is voluntary. Once
                              enrolled, an employee can then make an election to
                              discontinue receiving a paper earning and leave
                              statement. Clearly, the higher the percentage of
                              employees who elect to go paperless, the greater the
                              savings for that agency.

                          •   All employees at the Department of Justice
                              Headquarters and the Department of Treasury, Office
                              of Inspector General, receive paperless earning and
                              leave statements.

                       The use of electronic earnings and benefit information is
                       expected to grow significantly in the future. As it grows, so
                       do the savings for federal agencies that move in this
                       direction.

                                      14
Reports Distribution                                                                                 IS-AR-05-001




Recommendation                  We recommend the Acting Vice President, Finance,
                                Controller:

                                8. To the extent possible, capture the reported cost savings
                                   by prioritizing and incorporating electronic earnings
                                   statements and W-2s into planned initiatives.9

Management’s                    Management agreed with the spirit of our recommendation
Comments                        to reduce employee earnings information provided in paper
                                form. They stated the Postal Service has identified some
                                obstacles that must be overcome before this
                                recommendation can be implemented. Most notably, cost
                                and privacy issues must be thoroughly studied and vetted
                                through the appropriate functional groups. Postal Service
                                management plans to refer this recommendation to the
                                steering committee for action, and will keep the OIG abreast
                                of that committee’s recommendation.

Evaluation of                   Management’s comments are responsive to our
Management’s                    recommendation and actions planned should correct the
Comments                        issues identified in the finding.

Outputs Where                   Our analysis further showed that employee receivable
Mailing Frequencies             statements and time cards have mail frequencies that may
May Be Reduced                  be reduced.

    Employee                    Employee receivable statements is an area that may have
    Receivable                  opportunities where the Postal Service can reduce mailing
    Statements                  frequencies. Currently invoices are the first form of
                                notification of a debt owed. Subsequently, monthly
                                statements are mailed reflecting historical transactions
                                regardless of amount owed. The Postal Service does not
                                have a business requirement for producing receivable
                                statements that includes the reduction of printing and mailing
                                outputs.

                                Our analysis of monthly receivable statements printed and
                                mailed by the Eagan Host Computing Services in
                                February 2004 showed that at least 50 percent (4,884 of
                                9,677) of monthly statements analyzed pertain to employee
                                debts to the Postal Service.


9
 The phrase “to the extent possible” was not included in the original draft report and was added based upon
discussions with Postal Service management.

                                                    15
Reports Distribution                                                              IS-AR-05-001



                       As depicted below, 21.56 percent of statements mailed to
                       employees valued $0.


                                         Employee Statements Up to $25

                                                  Percent of   Percent of
                        Range of $     Count        Count        Field      Total Due
                       <0.01              1,053      21.56%           0%            $0
                       0.01 - 25.00          85       1.74%           0%          $869
                       >25.00             3,746      76.70%         100%     $6,949,226
                       Totals             4,884     100.00%         100%     $6,950,095



                       While statements serve as a collection reminder or
                       notification of receipt of payment, the employee relations
                       manual specifies procedures for collecting debts from
                       employees, including salary offsets. The employee relation’s
                       manual is silent on the frequency of distributing employee
                       receivable statements.

                       We recognize employee statements cannot be eliminated.
                       However, there are no legal barriers to prevent the Postal
                       Service from reducing the frequency of the mailings. As
                       such, we believe the mailing of these statements can be
                       changed from monthly to another production frequency,
                       such as, quarterly.

Timecards              Employee time cards also have mail frequencies that may
                       be reduced. Generally, time cards are mailed weekly to
                       small post offices. The Postal Service does not have a
                       business requirement for reducing the production of time
                       cards for small post offices that includes the reduction of
                       printing and mailing of these outputs. Our analysis of time
                       card distributions showed that:

                          •     Ninety-five percent of over 20,000 weekly mailings
                                were sent to locations with five or less employees.

                          •     It may be cost-prohibitive to deploy electronic badge
                                readers to facilities with small numbers of employees.

                          •     Manual work-a-rounds may be feasible since the
                                deployment of Time and Attendance Collection
                                System (TACS), Rural TACS and Telephone Voice
                                Response (TVR) has changed the business

                                        16
Reports Distribution                                                        IS-AR-05-001



                             environment. For example, the Postal Service could
                             eliminate 75 percent of time card distributions if it
                             changed its production run from weekly to monthly.

Recommendation         We recommend the Acting Vice President, Finance,
                       Controller:

                       9. Review opportunities for reducing the distribution
                          frequency for employee receivable statements and
                          timecards.

Management’s           Management disagreed with this recommendation and
Comments               stated that at this time they are not in a position to reduce
                       timecards. They also believe that employees should receive
                       receivable statements just like any other receivable.
                       However, they acknowledged that these areas may be
                       suitable for electronic conversion and thus will refer this
                       matter to the steering committee for action and resolution.

Evaluation of          Management’s action to refer timecards and employee
Management’s           statements to the steering committee for further review is
Comments               responsive to our recommendation.




                                      17
Reports Distribution                               IS-AR-05-001




                 APPENDIX. MANAGEMENT’S COMMENTS




                               18
Reports Distribution        IS-AR-05-001




                       19
Reports Distribution        IS-AR-05-001




                       20
